No. 19-930
IN THE

g,upreme <!Court of tbe Wntteb g,tates
CIC SERVICES, LLC,

Petitioner,

v.
INTERNAL REVENUE SERVICE; DEPARTMENT OF TREASURY;
UNITED STATES OF AMERICA,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Brief for Amicus Curiae Chamber of Commerce of the United
States of America in Support of Petitioner in CIC Services, LLC v. IRS, No. 19-930,
was served via electronic mail on all parties required:
Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
patrick@consovoymccarthy.com

Jeffrey B. Wall
Acting Solicitor General
DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Counsel for Petitioner

Counsel for Respondents

I declare under penalty of perjury that the foregoing is true and correct.

Date: July 22, 2020

YaakovRoth

